Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   SOUTH CAROLINA STATE
MEDICAID FRAUD CONTROL UNIT:
     2011 ONSITE REVIEW




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                        October 2012
                       OEI-09-11-00610
SOUTH CAROLINA STATE MEDICAID FRAUD CONTROL UNIT:
2011 ONSITE REVIEW
OEI-09-11-00610

WHY WE DID THIS STUDY

The Office of Inspector General (OIG) oversees all Medicaid Fraud Control Units
(MFCU or Unit) with respect to Federal grant compliance. As part of this oversight,
OIG reviews all Units. These reviews assess Unit performance in accordance with the
12 MFCU performance standards and monitor Unit compliance with Federal grant
requirements.

HOW WE DID THIS STUDY

We based our review on an analysis of data from seven sources: (1) a review of
documentation, policies, and procedures related to the Unit’s operations, staffing, and
caseload; (2) a review of financial documentation; (3) structured interviews with key
stakeholders; (4) a survey of Unit staff; (5) structured interviews with the Unit’s
management; (6) an onsite review of case files; and (7) an onsite review of Unit
operations.

WHAT WE FOUND

Our analysis of collected data from fiscal year (FY) 2008 through FY 2010 shows that
the Unit’s caseload increased by 65 percent and that the amount of funds the Unit
recovered nearly doubled, from $15.3 million in FY 2008 to $30.3 million in FY 2010.
Although almost all Unit case files documented supervisory approval to open and close
cases, the Unit’s case files lacked consistent documentation of periodic supervisory
reviews. In addition, the Unit had not updated its policies and procedures manual to
reflect the Unit’s current operations or its memorandum of understanding with
South Carolina’s State Medicaid agency to reflect current law and practice. Finally,
although the Unit maintained proper fiscal control of its resources, it did not report
program income properly in FY 2010. We found no further evidence of noncompliance
with applicable laws, regulations, and policy transmittals.

WHAT WE RECOMMEND

We recommend that the South Carolina Unit: (1) ensure that periodic supervisory
reviews are documented in Unit case files; (2) complete revisions to its policies and
procedures manual to reflect current Unit operations and revise its memorandum of
understanding with South Carolina’s single State Medicaid agency to reflect current law
and practice; and (3) ensure that program income is reported properly. The
South Carolina Unit concurred with all three of our recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................4
Findings........................................................................................................8
           From fiscal year 2008 through fiscal year 2010, the Unit’s
           caseload increased by 65 percent and the amount of funds the
           Unit recovered nearly doubled .........................................................8
           Although almost all case files contained documentation of
           supervisory approval to open and close cases, 61 percent
           contained no documentation of periodic supervisory reviews .........9
           The Unit had not updated its policies and procedures manual
           or its memorandum of understanding with the South Carolina
           Department of Health and Human Services...................................10
           The Unit maintained proper fiscal control of its resources,
           but it did not report program income properly in fiscal year
           2010................................................................................................ 11
Conclusion and Recommendations ............................................................13
           Unit Comments and Office of Inspector General Response ..........14
Appendixes ................................................................................................15
           A: Performance Standards for Medicaid Fraud Control Units .....15
           B: Referrals of Provider Fraud and Patient Abuse and Neglect to
           the Medicaid Fraud Control Unit by Source, Fiscal Years 2008
           Through 2010 .................................................................................19
           C: Investigations Opened and Closed by Provider Category
           and Case Type, Fiscal Years 2008 Through 2010 ..........................20
           D: Case File Review Population, Sample Size Counts, and
           Confidence Interval Estimates .......................................................22
           E: Unit Comments.........................................................................24
Acknowledgments......................................................................................28
                   OBJECTIVE
                   To conduct an onsite review of the South Carolina State Medicaid Fraud
                   Control Unit (MFCU or Unit).

                   BACKGROUND
                   The mission of State MFCUs, as established by Federal statute, is to
                   investigate and prosecute Medicaid provider fraud and patient abuse and
                   neglect under State law. 1 Pursuant to Title XIX of the SSA, each State
                   must maintain a certified Unit unless the Secretary of Health and Human
                   Services determines that operation of a Unit would not be cost-effective
                   because (1) minimal Medicaid fraud exists in that State; and (2) the State
                   has other adequate safeguards to protect Medicaid beneficiaries from
                   abuse and neglect. 2 Currently, 49 States and the District of Columbia
                   (States) have created such Units. 3 In fiscal year (FY) 2011, combined
                   Federal and State grant expenditures for the Units totaled $208.6 million,
                   of which Federal funds represented $156.7 million. 4 The 50 MFCUs
                   employed 1,833 individuals.
                   Each Unit must employ an interdisciplinary staff that consists of at least an
                   investigator, an auditor, and an attorney to carry out its duties and
                   responsibilities in an effective and efficient manner. 5 The staff reviews
                   complaints provided by the State Medicaid agency and other sources and
                   determines their potential for criminal prosecution and/or civil action.
                   Collectively, in FY 2011, the 50 Units reported 1,230 convictions and
                   906 civil settlements or judgments. That year, the Units reported
                   recoveries of approximately $1.7 billion. 6, 7
                   Units are required to have either Statewide authority to prosecute cases or
                   formal procedures to refer suspected criminal violations to an office with
                   such authority. 8 In South Carolina and 43 other States, the Units are

                   1
                     Social Security Act (SSA) § 1903(q).
                   2
                     SSA § 1902(a)(61). Regulations at 42 CFR § 1007.11(b)(1) add that the Unit’s
                   responsibilities may include reviewing complaints of misappropriation of patients’
                   private funds in residential health care facilities.
                   3
                     North Dakota and the territories of American Samoa, Guam, the Northern Mariana
                   Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units.
                   4
                     All FY references in this report are based on the Federal FY (October 1 through
                   September 30).
                   5
                     SSA § 1903(q)(6) and 42 CFR §1007.13.
                   6
                     Office of Inspector General (OIG), State Medicaid Fraud Control Units Fiscal Year
                   2011 Grant Expenditures and Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-
                   fraud-control-units-mfcu/ on April 16, 2012.
                   7
                     Pursuant to 42 CFR § 1007.17, Units report the total amount of recovered funds in their
                   annual reports to OIG.
                   8
                     SSA § 1903(q)(1).

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                     1
                   located within offices of State Attorneys General that have this authority.
                   In the remaining 6 States, the Units are located in other State agencies; 9
                   generally, such Units must refer cases to other offices with prosecutorial
                   authority. Additionally, each Unit must be a single identifiable entity of
                   State government, distinct from the State Medicaid agency, and each Unit
                   must develop a formal agreement—e.g., a memorandum of understanding
                   (MOU)—that describes the Unit’s relationship with that agency. 10
                   Oversight of the MFCU Program
                   The Secretary of HHS delegated to OIG the authority to both annually
                   certify the Units and administer grant awards to reimburse States for a
                   percentage of their costs in operating certified Units. 11 All Units are
                   currently funded by the Federal Government on a 75-percent matching basis,
                   with the States contributing the remaining 25 percent. 12 To receive Federal
                   reimbursement, each Unit must submit an initial application to OIG. 13
                   OIG reviews the application and notifies the Unit if the application is
                   approved and the Unit is certified. Approval and certification is for a
                   1-year period; the Unit must be recertified each year thereafter. 14
                   Pursuant to Title XIX of the SSA, States must operate Units that effectively
                   carry out their statutory functions and meet program requirements. 15
                   OIG developed and issued 12 performance standards to define further the
                   criteria that OIG applies in assessing whether a Unit is effectively carrying
                   out statutory functions and meeting program requirements. 16 Examples
                   include maintaining an adequate caseload through referrals from several
                   sources, maintaining an annual training plan for all three of the professional
                   disciplines (i.e., for auditors, investigators, and attorneys), and establishing
                   policy and procedures manuals to reflect the Unit’s operations. See
                   Appendix A for a complete list of the performance standards.


                   9
                     Among those States with a Unit, the Unit shares responsibility for protecting the
                   integrity of the Medicaid program with the section of the State Medicaid agency that
                   functions as the Program Integrity Unit. Some States also employ a Medicaid Inspector
                   General who conducts and coordinates fraud, waste, and abuse activities for the State
                   agency.
                   10
                      SSA § 1903(q)(2); 42 CFR § 1007.9(d).
                   11
                      The portion of funds reimbursed to States by the Federal Government for its share of
                   expenditures for the Federal Medicaid program, including the MFCUs, is called Federal
                   Financial Participation (FFP).
                   12
                      SSA § 1903(a)(6)(B).
                   13
                      42 CFR § 1007.15(a).
                   14
                      42 CFR § 1007.15(b) and (c).
                   15
                      SSA § 1902(a)(61).
                   16
                      59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov on
                   November 22, 2011. Since the time of our review, OIG published a revision of the
                   performance standards, 77 Fed. Reg. 32645 (June 1, 2012).

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                       2
                   South Carolina Unit
                   The Unit is an autonomous entity within the Criminal Prosecution
                   Division of the South Carolina Office of the Attorney General and has the
                   authority to prosecute Medicaid fraud and patient abuse and neglect cases.
                   At the time of our review, the Unit had 16 employees, all of whom were
                   located in the State capital of Columbia. 17 Unit investigators are generally
                   assigned to cover one of two areas: provider fraud or patient abuse and
                   neglect. However, because of the Unit’s relatively small size,
                   investigators and attorneys often work on both types of cases.
                   The Unit receives referrals of provider fraud from the single State
                   Medicaid agency, the South Carolina Department of Health and Human
                   Services (SCDHHS). Fraud referrals also come to the Unit from Federal
                   sources, such as OIG. Patient abuse and neglect referrals come from the
                   State Long Term Care Ombudsman. Referrals in both categories also
                   come from various law enforcement agencies and other State and local
                   sources. From FY 2008 through FY 2010, the Unit received an average of
                   100 referrals annually (see Appendix B). The Unit’s Provider Fraud
                   Intake Committee—composed of the Chief Attorney, a Chief Investigator,
                   and an analyst—decides whether to accept a referral as a case or to refer it
                   to another agency.
                   The Unit will not open a case unless it plans to investigate and prosecute
                   it. Unit management assigns an attorney, investigator, supervisor, and
                   analyst to each case the Unit decides to open. From FY 2008 through
                   FY 2010, the Unit opened an average of 101 cases annually—an average
                   of 62 cases of provider fraud and 39 cases of patient abuse and neglect. 18
                   For additional information on Unit investigations opened and closed,
                   including a breakdown by case type and provider category, see
                   Appendix C.
                   The Unit may pursue a case through a variety of actions, including
                   criminal prosecution, civil action, or a combination of the two. From
                   FY 2008 through FY 2010, the Unit closed an average of 113 cases
                   annually—an average of 55 provider fraud and 58 patient abuse and
                   neglect cases. 19 From FY 2008 through FY 2010, the Unit obtained an




                   17
                      We conducted our onsite review of the South Carolina Unit in December 2011.
                   18
                      The Unit will occasionally open cases that were not formally referred by another
                   agency. For example, a case may be brought to the Unit’s attention by the media.
                   19
                      Averages are rounded to the nearest whole number. The number of closed cases
                   includes multiple cases opened before FY 2008.

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                   3
                   annual average of 32 convictions (89 total) and closed an annual average
                   of 16 cases (49 total) through civil action. 20
                   From FY 2008 through FY 2010, the Unit directly participated in
                   18 “global”—i.e., multi-State—cases through the National Association of
                   Medicaid Fraud Control Units. 21 The Unit Director, Chief Auditor, and
                   Administrative Assistant to the Director all participated in global cases,
                   and the Unit Director and Chief Auditor trained State and Federal
                   prosecutors in the global process. 22 The Unit Director is a member of the
                   National Association of Medicaid Fraud Control Unit’s Global Case
                   Committee, which coordinates training in the global case process for State
                   attorneys and data analysts.
                   Previous Review
                   In 2005, OIG conducted an onsite review of the South Carolina Unit. In
                   the resulting memorandum, OIG noted no instances of noncompliance
                   with applicable Federal laws, regulations, or policy transmittals. The
                   memorandum contained no recommendations for Unit improvement. In
                   addition, the Unit received the 2010 State Fraud Award from OIG “in
                   recognition of efficient and effective management practices in combating
                   fraud and abuse in the Medicaid program.”

                   METHODOLOGY
                   We based our review on an analysis of data from seven sources:
                   (1) a review of documentation, policies, and procedures related to the
                   Unit’s operations, staffing, and caseload for FYs 2008 through 2010;
                   (2) a review of financial documentation for FYs 2008 through 2010;
                   (3) structured interviews with key stakeholders; (4) a survey of Unit staff;
                   (5) structured interviews with the Unit’s management; (6) an onsite review
                   of case files that were open in FYs 2008 through 2010; and (7) an onsite
                   review of Unit operations.
                   We analyzed data from all seven sources to describe the caseload and
                   assess the performance of the Unit. We also analyzed the data to identify


                   20
                      The Unit provided these figures on January 27, 2012. Figures are based on cases
                   closed as a result of criminal prosecution and/or civil action. These figures do not
                   include cases closed because the Unit determined the cases were no longer viable.
                   21
                      “Global” cases are civil false-claims cases involving the U.S. Department of Justice
                   and other State MFCUs. The National Association of Medicaid Fraud Control Units is a
                   voluntary association of all 50 Units. Among other services, the Association provides
                   training opportunities and facilitates the settlement of global cases. More information on
                   the Association and its involvement in global cases is available online at
                   http://www.namfcu.net.
                   22
                      During the review period, the Unit Director participated as a trainer/speaker in five
                   training sessions, and the Chief Auditor participated as a trainer once.

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                      4
                   any opportunities for improvement and any instances in which the Unit
                   did not meet the performance standards or was not operating in
                   accordance with laws, regulations, and policy transmittals.23 In addition,
                   we noted any practices that appeared to be beneficial to the Unit. We
                   based these observations on statements from Unit staff, data analysis, and
                   our own judgment. We did not independently verify the effectiveness of
                   these practices, but included the information because it may be useful to
                   other Units in their operations.
                   Data Collection and Analysis
                   Review of unit documentation. We requested and reviewed
                   documentation, policies, and procedures related to the Unit’s operations,
                   staffing, and cases, including its annual reports, quarterly statistical
                   reports, and responses to recertification questionnaires. We also requested
                   and reviewed the Unit’s data describing how it investigates and prosecutes
                   Medicaid cases. Data collected included information such as the number
                   of referrals received by the Unit and the number of investigations opened
                   and closed.
                   Review of financial documentation. We reviewed policies and procedures
                   related to budgeting, accounting systems, cash management, procurement,
                   property, and personnel to evaluate internal controls and to design our test
                   of financial documentation. We obtained from the Unit its claimed grant
                   expenditures for FY 2008 through FY 2010 to: (1) review final Federal
                   Status Reports 24 and supporting documentation; (2) select and review
                   transactions within direct cost categories to determine if costs were
                   allowable; and (3) verify that indirect costs were accurately computed
                   using the approved indirect cost rate. Finally, we reviewed records in the
                   Department of Health & Human Services’ (HHS) Payment Management
                   System 25 and revenue accounts to identify any unreported program
                   income. 26
                   Interviews with key stakeholders. We conducted structured interviews
                   with eight individual stakeholders among four agencies who were familiar

                   23
                      All relevant regulations, statutes, and policy transmittals are available online at
                   http://oig.hhs.gov.
                   24
                      The Unit transmits financial status reports to OIG’s Office of Management and Policy
                   on a quarterly and annual basis. These reports detail Unit income and expenditures.
                   25
                      HHS uses its electronic Payment Management System to distribute funds to program
                   grantees.
                   26
                      Program income refers to any funds typically received by the Unit as part of a legal
                   judgment or settlement, including restitution of Unit investigative and legal costs.
                   However, State settlement proceeds provided to the MFCU after refunding the Federal
                   share of the entire recovery to the Centers for Medicare & Medicaid Services do not
                   constitute program income under Federal grant regulations. OIG State Fraud Policy
                   Transmittal 10-01, Program Income (March 22, 2010).

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                       5
                   with Unit operations. Specifically, we interviewed SCDHHS’s Director of
                   Program Integrity; two Assistant U.S. Attorneys based in Columbia;
                   South Carolina’s Chief Deputy Attorney General; three OIG Special
                   Agents based in Columbia; and an Assistant Special Agent in Charge for
                   OIG’s Region IV, which includes the State of South Carolina. 27 These
                   interviews focused on the Unit’s interaction with external agencies, Unit
                   operations, opportunities for improvement, and any practices that appeared
                   to be beneficial to the Unit and that may be useful to other Units in their
                   operations.
                   Survey of Unit staff. We conducted an electronic survey of all
                   nonmanagerial Unit staff. We requested and received responses from each
                   of the 11 nonmanagerial staff members, a 100-percent response rate. 28
                   Our questions focused on operations of the Unit, opportunities for
                   improvement, and practices that appeared to be beneficial to the Unit and
                   that may be useful to other Units in their operations. The survey also
                   sought information about the Unit’s compliance with applicable laws,
                   regulations, and policy transmittals.
                   Interviews with Unit management. We conducted structured interviews
                   with the Unit’s director, deputy director (chief attorney), two chief
                   investigators, and chief auditor/analyst. We asked these managers to
                   provide us with additional information necessary to better understand the
                   Unit’s operations, identify opportunities for improvement, identify
                   practices that appeared to be beneficial to the Unit and that may be useful
                   to other Units in their operations, and clarify information obtained from
                   other data sources.
                   Onsite review of case files. We selected a simple random sample of
                   100 case files from the 456 cases 29 that were open at any point from
                   FY 2008 through FY 2010. The design of this sample allowed us to
                   estimate the percentage of all 456 cases with various characteristics
                   (+/-10 percent) at the 95-percent confidence level. We reviewed the
                   100 sampled case files and the Unit’s processes for monitoring the status
                   and outcomes of cases. 30 Of these 100 case files, we selected a further


                   27
                      The Chief Deputy Attorney General supervises the Unit Director.
                   28
                      This report uses the terms “management” and “supervisors” interchangeably.
                   “Nonmanagement” employees are Unit staff members who have no supervisory
                   authority.
                   29
                      This figure includes cases opened before FY 2008 that remained open at some point
                   during FYs 2008–2010.
                   30
                      The Unit provided us with an orientation of the case files and case tracking system to
                   confirm and supplement our understanding of how the Unit maintains and tracks case
                   progress and documentation. The Unit also gave us access to staff to answer any
                   questions and locate any available documentation missing from the case files.

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                         6
                   random sample of 50 files for a more in-depth review of selected issues,
                   such as the timeliness of investigations and prosecutions. 31 For population
                   and sample size counts, as well as confidence interval estimates, see
                   Appendix D.
                   Onsite review of Unit operations. While onsite, we reviewed the Unit’s
                   operations. Specifically, we observed intake of referrals, data analysis
                   operations, security of data and case files, and the general functioning of
                   the Unit.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency. 32




                   31
                      We initially selected 50 case files for more in-depth review; however, because time
                   allowed, we viewed an additional 3 case files.
                   32
                      Full text of these standards is available online at
                   http://www.ignet.gov/pande/standards/oeistds11.pdf.

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                      7
                   FINDINGS
                   From FY 2008 through FY 2010, the Unit’s caseload
                   increased by 65 percent and the amount of funds the
                   Unit recovered nearly doubled
                   The Unit’s caseload (measured by the number of opened cases) increased
                   each year of the review period and the Unit’s reported recovered funds
                   nearly doubled, from approximately $15.3 million in FY 2008 to
                   approximately $30.3 million in FY 2010.
                   The Unit’s caseload increased by 65 percent
                   The Unit’s caseload increased each year from FY 2008 through FY 2010.
                   The Unit opened 71 cases in FY 2008, 116 in FY 2009, and 117 in
                   FY 2010—a 65-percent increase over the review period. Unit
                   management and staff attributed the increased number of opened cases
                   partly to the establishment of the Unit’s Provider Fraud Intake Committee
                   in 2009. This committee meets biweekly to review recent referrals and
                   determine which to open as cases and which to refer to another agency.
                   According to Unit management and staff, the committee greatly
                   streamlined the process of accepting and directing appropriate cases,
                   serving as a “terrific screening process … a kind of triage.” One staff
                   member stated that the committee helped the Unit “become more efficient
                   in handling our cases.”
                   Unit management and staff also attributed the increased number of opened
                   cases partly to an increase in referrals. According to Performance
                   Standard 4, the Unit should take steps to ensure that it maintains an
                   adequate workload through referrals from the single State Medicaid
                   agency—SCDHHS—and other sources. The Unit received 71 referrals in
                   FY 2008, 114 in FY 2009, and 114 in FY 2010—a 61-percent increase
                   over the review period. According to management, staff, and individual
                   stakeholders, the increase in Unit referrals is partly due to the Unit’s
                   productive relationships with other agencies. For example, the Unit
                   established MOUs with the South Carolina Law Enforcement Division
                   and the State Long Term Care Ombudsman, and the Unit has made
                   numerous outreach efforts to local law enforcement. From
                   FY 2008 through FY 2010, the Unit received 100 combined referrals from
                   law enforcement and the State Long Term Care Ombudsman. Both the
                   Unit Director and the SCDHHS Program Integrity director indicated that
                   the relationship between the Unit and SCDHHS was excellent. From
                   FY 2008 through FY 2010, the Unit received 39 referrals from
                   SCDHHS. According to individual stakeholders, the Unit also established
                   a productive working relationship with OIG, which resulted in the Unit

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)      8
                   receiving 17 referrals from OIG in FY 2010, compared to 3 in the previous
                   2 years combined.
                   The Unit’s recovered funds nearly doubled
                   The total reported amount of funds the Unit recovered nearly doubled
                   from FY 2008 to FY 2010 (see Table 1). The Unit’s total operating costs
                   for FY 2010 were approximately $1.35 million. 33 That year, the Unit
                   received over $30 million in reported recovered funds—a return on
                   investment of roughly 22.5 to 1. 34
                   Table 1: South Carolina MFCU recovered funds, FY 2008 through FY 2010
                                                                                                                  3-Year
                                                               FY 2008           FY 2009            FY 2010
                                                                                                                   Total

                    Reported Criminal
                                                            $2,496,686          $375,011         $3,779,253    $6,650,950
                    Recoveries


                    Reported Civil Recoveries             $12,791,408        $16,652,635       $26,521,904    $55,965,947


                    Total Reported Recoveries             $15,288,094        $17,027,646       $30,301,157    $62,616,897


                   Source: OIG analysis of Unit Quarterly Statistical Reports, FY 2008 through FY 2010.



                   Although almost all case files contained
                   documentation of supervisory approval to open and
                   close cases, 61 percent contained no documentation
                   of periodic supervisory reviews
                   According to Performance Standard 6, a Unit should have a continuous
                   case flow and cases should be completed in a reasonable time. To help
                   ensure this, according to Performance Standard 6(b), Unit supervisors
                   should approve the opening and closing of cases. The Unit documented
                   supervisory approval to open cases 97 percent of the time. Among closed
                   cases, the Unit documented supervisory approval to close them 98 percent
                   of the time.
                   According to five of eight individual Unit stakeholders, the Unit’s
                   program knowledge benefitted the Unit’s case flow. In addition, Unit staff
                   and three of eight individual Unit stakeholders identified personnel
                   retention as beneficial to the Unit’s case flow. For example, the current
                   Unit Director has served as Director since immediately after the Unit’s
                   establishment in 1995. Unit supervisors have an average of 15 years’

                   33
                      The South Carolina Attorney General’s Office Finance staff provided the total
                   operating costs.
                   34
                      Reported recoveries include funds recovered from global cases, both those worked
                   directly by the Unit and those worked by staff from Federal agencies and other Units.

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                                      9
                   experience with the Unit and investigators have an average of 8 years of
                   experience.
                   According to Performance Standard 6(c), supervisory reviews also should
                   be “conducted periodically and noted in the case file” to ensure timely
                   case completion. 35 Ninety-three percent of Unit case files contained
                   documentation of at least one supervisory review. However, 61 percent of
                   case files contained no documentation of additional, periodic supervisory
                   review. Although 70 percent of closed case files contained no
                   documentation of periodic supervisory review, 22 percent of open case
                   files in our sample (4 of 18) contained no such documentation. 36
                   Fifty-seven percent of all cases without documentation of additional
                   periodic supervisory review were open for more than a year. 37
                   Unit supervisors explained that they conducted reviews frequently through
                   informal conversations and that they did not record these conversations in
                   the case files. Management further explained that the Unit had recently
                   taken steps to ensure periodic supervisory review of documentation by
                   using case status forms, which track supervisory approval and review
                   (including informal conversations) as well as pertinent actions on a case.
                   The Unit began using the case status forms in FY 2011.

                   The Unit had not updated its policies and procedures
                   manual or its MOU with SCDHHS
                   Although the Unit was in the process of updating its policies and
                   procedures, these updates had not yet been completed and had not been
                   incorporated into the Unit’s written manual. Moreover, the Unit’s MOU
                   with SCDHHS had not been updated to reflect recent legal changes that
                   allow the Unit to refer any provider under investigation for a credible fraud
                   allegation to SCDHHS for payment suspension.

                   The Unit had not updated its policies and procedures manual to
                   reflect current Unit operations
                   According to Performance Standard 3, a Unit should establish policies and
                   procedures for its operations, which should be included in a policies and
                   procedures manual. The current edition of the Unit’s policies and

                   35
                      For the purposes of this report, supervisory approval to open and close a case does not
                   constitute a case file “review.” Periodic supervisory review indicates that a supervisor
                   reviewed a case more than once between its opening and closing.
                   36
                      We were unable to confidently project this percentage to all 392 closed case files due
                   to the small sample size.
                   37
                      Because there were only 61 cases without documentation of additional periodic
                   supervisory review in our sample, the 95-percent confidence interval for this estimate is
                   44–69 percent.

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                      10
                   procedures manual was created in 2005. Unit supervisors stated that they
                   “constantly review policies and procedures for potential revisions,” and
                   that the manual is “overdue for a formal, written overhaul.” According to
                   Unit management, the manual needs to be further revised to address the
                   Unit’s new electronic case management system and electronic health
                   records seizure policy. Unit management stated that the manual was
                   currently being revised and would be completed in 2012.
                   The Unit had not updated its MOU with SCDHHS to reflect
                   current law and practice
                   According to Performance Standard 10, Units should periodically review
                   their MOU with the single State Medicaid agency—SCDHHS—to ensure
                   that the MOU reflects current law and practice. As required by Federal
                   regulation, the Unit had an MOU with SCDHHS. 38 However, the
                   MOU was not revised to reflect recent legal changes that allow the Unit to
                   refer any provider under investigation for a credible fraud allegation to
                   SCDHHS for payment suspension. 39 Both Unit management and
                   SCDHHS officials stated that they are aware of this omission and are
                   currently working to update the MOU, with the applicable changes to “be
                   incorporated in the next revision.”

                   The Unit maintained proper fiscal control of its
                   resources, but it did not report program income
                   properly in FY 2010
                   According to Performance Standard 11, the Unit Director should exercise
                   proper fiscal control over the Unit’s resources. “Control” includes
                   maintaining an equipment inventory, using generally accepted accounting
                   principles, properly reporting program income, and conducting proper
                   reporting between the Unit and its State parent agency.
                   From FY 2008 through FY 2010, the Unit claimed expenditures that
                   represented allowable, allocable, and reasonable costs in accordance with
                   applicable Federal regulations. In addition, the Unit maintained adequate
                   internal controls relating to accounting, budgeting, staff, procurement,
                   property, and equipment. However, the Unit improperly reported
                   $8,275 of its portion of settlement proceeds as program income on its
                   Federal Financial Status Reports for FY 2010. 40 According to OIG policy,

                   38
                      42 CFR § 1007.9(d).
                   39
                      42 CFR § 455.23; 42 CFR §1007.9(e). These MOU revisions also should specify the
                   procedures for referring such providers and the subsequent actions to be taken by the single
                   State Medicaid agency, such as SCDHHS.
                   40
                      The Unit reports annual expenses and program income to account for how much
                   money the Unit “draws down,” or withdraws, from the HHS Payment Management
                   System as Federal reimbursement for its annual operating costs.

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                       11
                   State settlement proceeds provided to the MFCU after refunding the
                   Federal share of the entire recovery to the Centers for Medicare
                   & Medicaid Services do not constitute program income under Federal
                   grant regulations. 41, 42 Because the Unit did not follow OIG policy, the
                   Unit subsequently withdrew fewer funds from the HHS Payment
                   Management System than it was entitled to receive.




                   41
                      OIG State Fraud Policy Transmittal 10-01, Program Income (March 22, 2010).
                   42
                      Pursuant to 45 CFR § 92.25(g), program income is deducted from total net outlays to
                   defray a portion of Federal reimbursement to a grantee (in this case, the Unit). The Unit
                   should not have reported settlement proceeds on its Federal Financial Status Reports
                   because the Federal Medical Assistance Percentage share of the total recovery proceeds
                   already had been reimbursed to CMS. The Federal Medical Assistance Percentage is the
                   State-specific rate of Federal matching funds allocated annually to assist State programs
                   such as Medicaid.

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                    12
                   CONCLUSION AND RECOMMENDATIONS
                   From FY 2008 through FY 2010, the Unit opened 304 cases, obtained
                   89 convictions, and reported over $62 million in recoveries and restitution.
                   During this period, the Unit’s caseload increased by 65 percent and the
                   total reported amount of funds the Unit recovered nearly doubled. A
                   practice that appeared to be beneficial and that may have contributed to
                   this increase was the establishment of the Unit’s Provider Fraud Intake
                   Committee. Unit supervisors consistently approved the opening and
                   closing of cases, and 93 percent of cases documented at least one
                   supervisory review.
                   Despite this progress, opportunities for improvement exist. Specifically,
                   Unit case files did not consistently document periodic supervisory
                   reviews. Additionally, the Unit did not complete ongoing revisions to the
                   Unit’s policies and procedures manual and the Unit’s MOU with SCDHHS
                   was not updated to reflect current law and practice. Finally, the Unit did
                   not report program income properly in FY 2010.
                   We found no further evidence of noncompliance with applicable laws,
                   regulations, and policy transmittals.
                   We recommend that the South Carolina Unit:
                   Ensure That Periodic Supervisory Reviews Are Documented in
                   Unit Case Files
                   To ensure timely completion of its cases, the Unit should include
                   documentation in its case files to demonstrate that supervisors conducted
                   periodic reviews.
                   Complete Revisions to Its Policies and Procedures Manual To
                   Reflect Current Unit Operations and Revise Its MOU With
                   SCDHHS To Reflect Current Law and Practice
                   The Unit should incorporate its pending policies and procedures revisions
                   into an updated edition of the policies and procedures manual. The Unit
                   should also add sections that address aspects of its operations not covered
                   previously, such as the Unit’s new electronic case management system and
                   electronic health records seizure policy.
                   The Unit should also revise its MOU with SCDHHS to specify that the
                   Unit may refer any provider suspected of fraud for payment suspension to
                   SCDHHS and to describe the procedure for this type of referral.
                   Ensure That Program Income Is Reported Properly
                   The Unit should report its program income according to guidelines in
                   OIG State Fraud Policy Transmittal 10-01.


South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)       13
                   UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   The Unit concurred with the three report recommendations.
                   Regarding our first recommendation, the Unit implemented a “case status
                   form” that documents supervisory approval at the appropriate case stages.
                   The Unit also restructured its procedure for assigning investigative teams
                   to ensure periodic supervisory review.
                   Regarding our second recommendation, the Unit Director created a
                   Policies and Procedures Manual Committee to complete the final draft of a
                   revised policies and procedures manual by the end of 2012; after vetting,
                   the revised manual should be completed in early 2013. The Unit and
                   SCDHHS are working to complete a revised MOU by the end of 2012.
                   Regarding our third recommendation, the Unit implemented a process to
                   ensure that program income is reported appropriately according to Federal
                   guidelines.
                   The full text of the Unit’s comments is provided in Appendix E. We did
                   not make any changes to the report based on the Unit’s comments.




South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)      14
                   APPENDIX A
                   Performance Standards for Medicaid Fraud Control Units
                   (Unit) 43
                   1. A Unit will be in conformance with all applicable statutes,
                      regulations and policy transmittals. In meeting this standard, the
                      Unit must meet, but is not limited to, the following requirements:
                        a. The Unit professional staff must consist of permanent employees
                           working full-time on Medicaid fraud and patient abuse matters.
                        b. The Unit must be separate and distinct from the single State
                           Medicaid agency.
                        c. The Unit must have prosecutorial authority or an approved formal
                           procedure for referring cases to a prosecutor.
                        d. The Unit must submit annual reports, with appropriate
                           certifications, on a timely basis.
                        e. The Unit must submit quarterly reports on a timely basis.
                        f. The Unit must comply with the Americans with Disabilities Act,
                           the Equal Employment opportunity requirements, the Drug Free
                           workplace requirements, Federal lobbying restrictions, and other
                           such rules that are made conditions of the grant.
                   2. A Unit should maintain staff levels in accordance with staffing
                      allocations approved in its budget. In meeting this standard, the
                      following performance indicators will be considered:
                        a. Does the Unit employ the number of staff that was included in the
                           Unit's budget as approved by [the Office of Inspector General
                           (OIG)]?
                        b. Does the Unit employ the number of attorneys, auditors, and
                           investigators that were approved in the Unit's budget?
                        c. Does the Unit employ a reasonable size of professional staff in
                           relation to the State's total Medicaid program expenditures?
                        d. Are the Unit office locations established on a rational basis and are
                           such locations appropriately staffed?
                   3. A Unit should establish policies and procedures for its operations,
                      and maintain appropriate systems for case management and case
                      tracking. In meeting this standard, the following performance
                      indicators will be considered:
                        a. Does the Unit have policy and procedure manuals?

                   43
                     59 Federal Register 49080 (Sept. 26, 1994). These performance standards were in
                   effect at the time of our review and precede the performance standards published in
                   June 2012.

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                   15
                       b. Is an adequate, computerized case management and tracking
                          system in place?
                   4. A Unit should take steps to ensure that it maintains an adequate
                       workload through referrals from the single State agency and other
                       sources. In meeting this standard, the following performance
                       indicators will be considered:
                       a. Does the Unit work with the single State Medicaid agency to
                          ensure adequate fraud referrals?
                       b. Does the Unit work with other agencies to encourage fraud
                          referrals?
                       c. Does the Unit generate any of its own fraud cases?
                       d. Does the Unit ensure that adequate referrals of patient abuse
                          complaints are received from all sources?
                   5. A Unit’s case mix, when possible, should cover all significant
                      provider types. In meeting this standard, the following performance
                      indicators will be considered:
                       a. Does the Unit seek to have a mix of cases among all types of
                          providers in the State?
                       b. Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                          patient abuse cases?
                       c. Does the Unit seek to have a mix of cases that reflect the
                          proportion of Medicaid expenditures for particular provider
                          groups?
                       d. Are there any special Unit initiatives targeting specific provider
                          types that affect case mix?
                       e. Does the Unit consider civil and administrative remedies when
                          appropriate?
                   6. A Unit should have a continuous case flow, and cases should be
                      completed in a reasonable time. In meeting this standard, the
                      following performance indicators will be considered:
                       a. Is each stage of an investigation and prosecution completed in an
                          appropriate time frame?
                       b. Are supervisors approving the opening and closing of
                          investigations?
                       c. Are supervisory reviews conducted periodically and noted in the
                          case file?
                   7. A Unit should have a process for monitoring the outcome of cases.
                      In meeting this standard, the following performance indicators will be
                      considered:
                       a. The number, age, and type of cases in inventory.

South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)        16
                       b. The number of referrals to other agencies for prosecution.
                       c. The number of arrests and indictments.
                       d. The number of convictions.
                       e. The amount of overpayments identified.
                       f. The amount of fines and restitution ordered.
                       g. The amount of civil recoveries.
                       h. The numbers of administrative sanctions imposed.
                   8. A Unit will cooperate with the OIG and other Federal agencies,
                      whenever appropriate and consistent with its mission, in the
                      investigation and prosecution of health care fraud. In meeting this
                      standard, the following performance indicators will be considered:
                       a. Does the Unit communicate effectively with the OIG and other
                          Federal agencies in investigating or prosecuting health care fraud
                          in their State?
                       b. Does the Unit provide OIG regional management, and other
                          Federal agencies, where appropriate, with timely information
                          concerning significant actions in all cases being pursued by the
                          Unit?
                       c. Does the Unit have an effective procedure for referring cases,
                          when appropriate, to Federal agencies for investigation and other
                          action?
                       d. Does the Unit transmit to the OIG, for purposes of program
                          exclusions under section 1128 of the [Social Security Act], reports
                          of convictions, and copies of Judgment and Sentence or other
                          acceptable documentation within 30 days or other reasonable time
                          period?
                   9. A Unit should make statutory or programmatic recommendations,
                      when necessary, to the State government. In meeting this standard,
                      the following performance indicators will be considered:
                       a. Does the Unit recommend amendments to the enforcement
                          provisions of the State's statutes when necessary and appropriate to
                          do so?
                       b. Does the Unit provide program recommendations to single State
                          agency when appropriate?
                       c. Does the Unit monitor actions taken by State legislature or State
                          Medicaid agency in response to recommendations?




South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)      17
                   10. A Unit should periodically review its memorandum of
                       understanding (MOU) with the single State Medicaid agency and
                       seek amendments, as necessary, to ensure it reflects current law
                       and practice. In meeting this standard, the following performance
                       indicators will be considered:
                       a. Is the MOU more than 5 years old?
                       b. Does the MOU meet Federal legal requirements?
                       c. Does the MOU address cross-training with the fraud detection staff
                          of the State Medicaid agency?
                       d. Does the MOU address the Unit’s responsibility to make program
                          recommendations to the Medicaid agency and monitor actions
                          taken by the Medicaid agency concerning those recommendations?
                   11. The Unit director should exercise proper fiscal control over the
                       Unit resources. In meeting this standard, the following performance
                       indicators will be considered:
                       a. Does the Unit director receive on a timely basis copies of all fiscal
                          and administrative reports concerning Unit expenditures from the
                          State parent agency?
                       b. Does the Unit maintain an equipment inventory?
                       c. Does the Unit apply generally accepted accounting principles in its
                          control of Unit funding?
                   12. A Unit should maintain an annual training plan for all
                       professional disciplines. In meeting this standard, the following
                       performance indicators will be considered:
                       a. Does the Unit have a training plan in place and funds available to
                          fully implement the plan?
                       b. Does the Unit have a minimum number of hours training
                          requirement for each professional discipline, and does the staff
                          comply with the requirement?
                       c. Are continuing education standards met for professional staff?
                       d. Does the training undertaken by staff aid to the mission of the
                          Unit?




South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)         18
                   APPENDIX B
                   Referrals of Provider Fraud and Patient Abuse and Neglect to
                   the Medicaid Fraud Control Unit by Source, Fiscal Years 2008
                   Through 2010


                   Table B1: Medicaid Fraud Control Unit Referrals

                                                        FY 2008                  FY 2009                  FY 2010
                                                               Abuse                     Abuse                    Abuse
                    Referral Source                Fraud         and         Fraud         and        Fraud         and          Total
                                                              Neglect                   Neglect                  Neglect
                    South Carolina
                    Department of Health               14             0          12             1         12             0           39
                    and Human Services
                    Other State Agencies                 9           13           9             0         16             0           47

                    Licensing Board                      0            1           1             0           1            0            3

                    Law Enforcement                      0           19           3           18            1          23            64

                    Office of Inspector
                                                         1            0           2             0         17             0           20
                    General (OIG)
                    Outside Prosecutors                  2            1           0             0           2            0            5

                    Providers                            0            2           0             0           0            0            2

                    Provider Associations                0            0          10             0           0            0           10
                    Long Term Care
                                                         2            3           0           22            0            9           36
                    Ombudsman
                    Private Citizens                     2            0           1             0           6            0            9

                    Unit Hotline                         0            0           9             0         11             0           20

                    Other                                2            0          26             0         10             6           44

                       Total                           32            39          73           41          76           38          299

                       Annual Total                                  71                      114                      114

                       Annual Average                                                                                 100

                   Source: OIG analysis of South Carolina Medicaid Fraud Control Unit (Unit) Quarterly Statistical Reports, fiscal year
                   (FY) 2008 through FY 2010.




South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                                              19
                   APPENDIX C
                   Investigations Opened and Closed by Provider Category and
                   Case Type, Fiscal Years 2008 through 2010
                   Table C1: Total Annual Opened and Closed Investigations

                   Case Type                       FY 2008        FY 2009       FY 2010       3-Year Total      Annual Average

                   Opened                                  71           116           117               304                   101*
                      Patient Abuse and
                                                           40            42            34               116                        39
                      Neglect
                      Provider Fraud                       31            74            83               188                        63



                   Closed                                  72           109           157               338                    113
                      Patient Abuse and
                                                           48            52            73               173                        58
                      Neglect
                      Provider Fraud                       24            57            84               165                        55
                  Source: Office of Inspector General (OIG) analysis of South Carolina Medicaid Fraud Control Unit (Unit) Annual
                  Reports, fiscal year (FY) 2008 through FY 2010.
                  *Due to rounding, the total average of opened cases does not match the combined averages of patient abuse and
                  neglect and provider fraud opened cases.



                   Table C2: Total Investigations, by Case Type

                                                   FY 2008                    FY 2009                    FY 2010
                    Case Type
                                             Opened        Closed        Opened       Closed        Opened        Closed      Total
                    Patient Abuse and
                                                    40           48            42           52            34           73          289
                    Neglect
                    Provider Fraud                  31           24            74           57            83           84          353

                       Total                        71           72           116           109          117          157          642
                   Source: OIG analysis of Unit Annual Reports, FY 2008 through FY 2010.




                   Table C3: Patient Abuse and Neglect Investigations


                    Provider                       FY 2008                    FY 2009                    FY 2010
                    Category
                                             Opened        Closed        Opened       Closed        Opened        Closed      Total
                    Nursing Facility                 2            2              0           2              0            3          9

                    Nondirect Care                  15           13              8          13              7          10          66
                    Other Long Term
                                                     1            1              1           0              0            1          4
                    Care
                    Certified Nurse
                                                     1            4            19            7              1          18          50
                    Aides
                    Other                           21           28            14           30            26           41          160

                       Total                        40           48            42           52            34           73          289

                   Source: OIG analysis of Unit Annual Reports, FY 2008 through FY 2010.




South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                                             20
                   Table C4: Provider Fraud Investigations

                    Provider
                                                  FY 2008                   FY 2009                FY 2010
                    Category
                    Facilities               Opened       Closed       Opened       Closed      Opened   Closed   Total
                    Nursing Facilities               0           0             0           0         3       2       5
                    Other Long Term
                                                     1           0             0           1         0       0       2
                    Care Facilities
                    Other                            1           1             1           2         5       5      15
                    Practitioners            Opened       Closed       Opened       Closed      Opened   Closed   Total
                    Doctors of
                    Medicine or                      3           0             5           4        11       11     34
                    Osteopathy
                    Dentists                         6           0             7           8         3       5      29

                    Podiatrists                      0           0             0           1         0       0       1
                    Optometrists/
                                                     0           0             0           0         2       2       4
                    Opticians
                    Counselors/
                                                     1           1             2           1         1       3       9
                    Psychologists
                    Chiropractors                    0           1             0           0         3        3      7

                    Other                            0           1             2           2         1       1       7
                    Medical Support          Opened       Closed       Opened       Closed      Opened   Closed   Total
                    Pharmacies                       1           3             4           6         3       5      22
                    Pharmaceutical
                                                     2           0           26            3         9       5      45
                    Manufacturers
                    Suppliers of
                    Durable Medical
                                                     1           0             3           6         7       3      20
                    Equipment and/or
                    Supplies
                    Laboratories                     0           4             2           2         0       3      11
                    Transportation
                                                     4           2             0           8         3       5      22
                    Services
                    Home Health
                                                     7           3             4           5         6       6      31
                    Care Agencies
                    Home Health
                                                     3           6             5           4         1       3      22
                    Care Aides
                    Nurses, Physician
                    Assistants, Nurse
                    Practitioners,                   0           0             2           1         2       1       6
                    Certified Nurse
                    Aides
                    Radiologists                     0           0             0           0         2       0       2
                    Medical
                                                     1           2           10            3        21       21     58
                    Support—Other
                    Program Related          Opened       Closed       Opened       Closed      Opened   Closed   Total
                    Managed Care                     0           0             1           0         0       0       1

                       Total                       31           24           74            57       83       84    353
                   Source: OIG analysis of Unit Annual Reports, FY 2008 through FY 2010.




South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                              21
                   APPENDIX D
                   Case File Review Population, Sample Size Counts, and
                   Confidence Interval Estimates
                   Table D-1 shows population and sample counts and percentages by case
                   type. Note that both samples have percentages of case types similar to the
                   general population, though sample counts for some case types are very
                   small. Due to these small sample sizes, we cannot generalize what we
                   found in our sample review to case types in the population, and only our
                   overall point estimates project to the population of all case files. We
                   estimated the 6 population values for all 456 case files from the results of
                   our review of the case files selected in our simple random sample.
                   Table D-2 includes the estimate descriptions, sample sizes, point
                   estimates, and 95-percent confidence intervals for these six estimates.


                   Table D-1: Population and Sample Size Counts for Case Types

                                                         Population Count                Sample Count*             Sample Count*
                    Case Type                                        and (%)                      and (%)                    and (%)
                                                                       n=456                        n=100                       n=50

                    Closed                                        392 (86%)                      82 (82%)                  43 (86%)

                    Open                                            64 (14%)                     18 (18%)                    7 (14%)




                    Civil                                           73 (16%)                     17 (17%)                    9 (18%)

                    Criminal                                      367 (80%)                      79 (79%)                  39 (78%)

                    Civil and Criminal                               16 (4%)                        4 (4%)                    2 (4%)




                    Patient Abuse/Neglect                         199 (44%)                      39 (39%)                  22 (44%)

                    Provider Fraud                                257 (56%)                      61 (61%)                  28 (56%)

                   Source: The Medicaid Fraud Control Unit provided a list of all case files open during fiscal year (FY) 2008 through
                   FY 2010.
                   *The Office of Inspector General generated this random sample.




South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                                              22
                   Table D-2: Confidence Intervals for Key Case File Review Data

                                                                            Point        95-Percent Confidence
                    Estimate Description           Sample Size
                                                                         Estimate                      Interval
                    Case files with
                    documented supervisory                   100            97.0%                 91.5%–99.4%
                    approval for opening
                    Case files with
                    documented supervisory                    82            97.6%                 91.5%–99.7%
                    approval for closing
                    Case files with
                    documentation indicating
                                                             100            93.0%                 86.1%–97.1%
                    at least one supervisory
                    review
                    Case files with no
                    documentation indicating
                                                             100            61.0%                 52.5%–69.5%
                    periodic supervisory
                    review
                    Closed case files with no
                    documentation indicating
                                                              82            69.5%                 60.7%–78.3%
                    periodic supervisory
                    review
                    Case files with no
                    documentation indicating
                    periodic supervisory                      61            57.4%                 44.0%–69.0%
                    review open for more
                    than a year




South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)                        23
                   APPENDIX E

                   Unit Comments




South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)   24
South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)   25
South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)   26
                                                                                                                                n
                                                                                                                                It


            Response
            We agree the unit should report its program income according to guidelines in OIG State Fraud Policy
            Transmittal I0-0 I.

            Analysis
            From FY 2008 to FY 20l 0 the unit drew down fewer funds from the i fHS Payment Management
            System than it was entitled to receive. The unit improperly reported $8,275 of its portion of settlement
            procet-'tls as program income on its Federal Financial Status Reports for FY 20 I0, causing the
            deficiency in funding to the unit.
                                                                                                                                1:
            Plan
            The unit will ensure that program income is reported appropriately and performed according to Federal
            Medical Assistance Percentage guidelines. This process ha~ already been implemented.

                                                                                                                                1:
                                                       CONCLUSION

                    The SC MFCU appreciates the efforts ofHHS-010 and found the audit pruccss to be
            educational. We appreciate and concur with the recommendations. We commend OJG-HHS lor going
            beyond the typical constraints of the audit process to include the many positives ofthe SC MFCU­
            increased caseload, increased recoveries, the productive, collegial relationship with external agencies,
            and modified processes which increa~c the efficiency of the Unit. The SC MFCU remains committed                     [i
            to the joint federal-state mission of fighting fraud in the Medicaid Program.




                                                                 Sincerely yours,

                                                                        /S/
                                                                 C. William Gambrell, Jr.
                                                                 Senior Assistant Attorney General
                                                                 Director, Medicaid Fraud Control Unit




                                                                                                                                r.




                                                                                                                       4
                                                                                                                                I




South Carolina State Medicaid Fraud Control Unit 2011 Onsite Review (OEI-09-11-0061 0)                                     27
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Timothy S. Brady, Regional
                   Inspector General for Evaluation and Inspections in the San Francisco
                   regional office, and Michael Henry, Deputy Regional Inspector General.
                   Matthew DeFraga served as the lead analyst for this study. Other Office
                   of Evaluation and Inspections staff from the San Francisco regional office
                   who conducted the study include Marcia Wong. Central office staff who
                   provided support include Thomas Brannon, Kevin Farber, Debra Roush,
                   Christine Moritz, and Maureen Pucciano. Office of Audit Services staff
                   who provided support include Gupa Goha, Ryan Moul, and Clarissa Yu.
                   Office of Investigations staff who provided support include Rene Olivas.
                   Office of Management and Policy staff who provided support include
                   Alexis Lynady.




South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-09-11-00610)      28
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
